     Management Advisory Report



  Single Audit of the State of New
Mexico Public Education Department
 for the Fiscal Year Ended June 30,
                 2011




      A-77-13-00013 | December 2013
Single Audit of the State of New Mexico Public Education
Department for the Fiscal Year Ended June 30, 2011
A-77-13-00013
December 2013                                                            Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported that DVR:
noncompliance issues, and
unallowable costs identified in the      •   Did not follow established policies and procedures to ensure
single audit to Social Security              vendors are not suspended or debarred.
Administration (SSA) for resolution      •   Did not consistently follow established internal control policies
action.                                      for reviewing and approving Federal cash draws.
Background                               Recommendations
Moss Adams LLP conducted the single      We recommend that SSA:
audit of the State of New Mexico
Public Education Department. SSA is      1. Confirm that DVR is following its established policies and
responsible for resolving single audit      procedures for ensuring vendors are not suspended or debarred.
findings related to its Disability
Insurance program. The Division of       2. Verify that DVR is following its established policies for
Vocational Rehabilitation (DVR) is the      reviewing and approving cash draws.
New Mexico Disability Determination
Services’ (DDS) parent agency.
MEMORANDUM
Date:      December 23, 2013                                                          Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of New Mexico Public Education Department for the Fiscal Year
           Ended June 30, 2011 (A-77-13-00013)

           On August 7, 2013, we issued the Social Security Administration’s (SSA) portion of the single
           audit of the State of the New Mexico Public Education Department for the Fiscal Year ended
           June 30, 2011. Subsequent to issuing the report, we received information from the New Mexico
           Division of Vocational Rehabilitation (DVR) and the auditor who performed the single audit,
           Moss Adams LLP. Based on the new information, we are issuing a revised report. Please
           disregard the prior report.

           This revised report presents SSA’s portion of the single audit of the State of New Mexico Public
           Education Department for the Fiscal Year ended June 30, 2011. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           We have not received the results of the desk review conducted by the Department of Education
           (ED). We will notify SSA when we receive the results if ED determines the audit did not meet
           Federal requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by the Moss Adams LLP and the reviews
           performed by ED. We conducted our review in accordance with the Council of the Inspectors
           General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The New Mexico Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. DVR is the New Mexico DDS’ parent agency.


           1
               Moss Adams LLP, State of New Mexico Public Education Department, Single Audit, June 30, 2011.
Page 2 - Gary S. Hatcher

The single audit reported that DVR:

•      Did not follow established policies and procedures to ensure vendors are not suspended or
       debarred. The corrective action plan indicated that the contract manager will perform a
       verification of suspended or debarred contractors using the Excluded Parties List System and
       retain a copy of the verification in the Agencies contract file. 2

•      Did not consistently follow established internal control policies for reviewing and approving
       Federal cash draws. The corrective action plan indicated DVR staff will ensure all proper
       approval signatures are obtained before requesting cash draws of Federal funds,. 3

We recommend that SSA:

1. Confirm that DVR is following its established policies and procedures for ensuring vendors
   are not suspended or debarred.

2. Verify that DVR is following its established policies for reviewing and approving cash
   draws.

The single audit disclosed that DVR did not have a process to reconcile the vocational
rehabilitation grant (VR) expenditures to cash draws, resulting in over draws and over billings to
the VR program. 4 This finding may impact the DDS’s operations, although it was not
specifically identified to SSA. I am bringing this matter to your attention as it represents a
potentially serious service delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802 or Shannon.agee@ssa.gov.




                                                  Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id at finding 11-04.
3
    Id at finding 11-05.
4
    Id. at finding 11-02.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
